No. 19-438
INTHE

CLEMENTE A VE LINO PEREIDA,

Petitioner,

V.

WILLIAM P. BARR, ATTORNEY GENERAL,

Respondent.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF SERVICE

I, David Lesser, a member of the bar of this Court, hereby certify that, on this 4th
day of February, 2020, all parties required to be served have been served copies of the
Brief for Amici Curiae National Association of Criminal Defense Lawyers and National
Association of Federal Defenders in Support of Petitioner in this matter by electronic
mail and overnight courier to the addresses below.

Counsel for Petitioner

Counsel for Respondent

BRIAN PHILIP GOLDMAN
ORRICK, HERRINGTON & SUTCLIFFE LLP
405 Howard Street
San Francisco, CA 94105
(415) 773-5676
brian.goldman@orrick.com

NOELJ. FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF
JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

,Ql

£Rf--

DAVID LESSER

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich St.
New York, NY 10007
(212) 230-8800
david.lesser@wilmerhale.com

